WAIVER

Supreme Court, U.S.
FILED

Supreme Court of the United States

DEC 1 8 2020
OFFICE OF THE CLERK

No. 20-740
Jim Bognet, et al.

v.

(Petitioners)

Kathy Boockvar, Secretary of
Pennsylvania, et al.
(Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
IX There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

wioyylin) CotinVii

_9kavan

lotwaS

rtitAimS

0 I am a member of the Bar of the Supreme Court of the United States.

ci

I am not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.

/c

Signature
Date:

12/10/2020

(Type or print) Name Kenneth R. Levitzky, Solicitor of Sullivan and Wyoming
O Miss County Boards of
El Mrs.
D Ms.
El Mr.
Elections
Firm Kenneth R. Levitzky, Attnrney at Law
Address 125 Churchill Street, P.O. Box 489
City & State
Phone

Dushore, PA

Zip 1R14

570-928-8288

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONERS IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUI

Cc: Nicholas Varone (nvarone@cOoperkirk.com )

RECEIVED
DEC 3 0 2020

U.S,
SUPREME COURTK
Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

KENNETH R. LEVITZKY
ATTORNEY AT LAW
125 CHURCHILL STREET
SOX 489
OLISHORE, PA 18614

TELEPHONE
(570) 92E1-8288

December 16, 2020

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
RE: Jim Bognet, et al v. Kathy Boockvar, Secretary of PA, et al.
SCOTUS No. : 20-740
Dear Clerk:
Enclosed herewith please find a Waiver on behalf of the Sullivan County Board of
Elections and the Wyoming County Board of Elections in the above-captioned matter.
Thank you for your cooperation and assistance in this matter.
Very truly yours,

R.
Kenneth R. Levitz
KRL:lkp
Enclosure

